APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Federal Circuit
(August 13, 2020) . . . . . . . . . . . . . App. 1
Appendix B Minute Entry in the United States
District Court for the Northern
District of Illinois Eastern Division
(July 24, 2019) . . . . . . . . . . . . . . App. 23
Appendix C Final Judgment Awarding Attorney’s
Fees as Rule 11 Sanctions in the
United States District Court Northern
District of Illinois Eastern Division
(July 24, 2019) . . . . . . . . . . . . . . App. 25
Appendix D Order in the United States District
Court for the Northern District of
Illinois Eastern Division
(July 15, 2019) . . . . . . . . . . . . . . App. 27
Appendix E Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois
Eastern Division
(May 16, 2019) . . . . . . . . . . . . . . App. 32
Appendix F Judgment in a Civil Case in the
United States District Court for the
Northern District of Illinois
(May 16, 2019) . . . . . . . . . . . . . . App. 46

ii
Appendix G Order Denying Rehearing in the
United States Court of Appeals for the
Federal Circuit
(November 6, 2020). . . . . . . . . . . App. 48
Appendix H Order in the United States Court of
Appeals for the Seventh Circuit
(September 16, 2019) . . . . . . . . . App. 50
Appendix I Fed. R. Civ. P. 11 . . . . . . . . . . . . App. 52

App. 1

APPENDIX A
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
2019-1952, 2019-2394
[Filed: August 13, 2020]
__________________________________________
NAZIR KHAN, IFTIKHAR KHAN,
)
Plaintiffs-Appellants
)
)
v.
)
)
HEMOSPHERE INC., ET AL.,
)
Defendants-Appellees
)
)
MERIT MEDICAL SYSTEMS INC.,
)
Defendant-Cross-Appellant )
)
HOSPITALS AND DOCTORS
)
IMPLANTING UNPATENTED HERO
)
GRAFT TO DOCTORS, ET AL.,
)
Defendants
)
__________________________________________)
Appeals from the United States District Court for
the Northern District of Illinois in No. 1:18-cv-05368,
Judge Virginia M. Kendall.
Decided: August 13, 2020

App. 2
NAZIR KHAN, IFTIKHAR KHAN, Burr Ridge, IL, pro se.
BRENT P. LORIMER, Workman Nydegger, Salt Lake
City, UT, for defendant-cross-appellant and
defendants-appellees Willaim J. Tapscott, James W.
Campbell, Heather LeBlanc, Lee Forestiere, Edward
Kim, Joy Garg Kaiser Permanente, Marius Saines,
Gustavo Torres, Charles M. Eichler, Eric Ladenheim,
Robert S. Brooks, Anne Lally, Matthew G. Brown,
Abilio Coello, Howard E. Katzman, Stephen Wise
Unger, Fernando Kafie, Robert Hoyne, Robert
Brumberg, Murray L. Shames, Victor Bowers, Heidi A.
Pearson, Jeffrey Pearce, Michael Klychakin, William
Schroder, Jonathan R. Molnar, Christopher Wixon,
Julio Vasquez, William Soper, Jeffrey Silver, Stephen
Jensik, Gary Lemmon, Raghu L. Motagnahalli, Ruban
Nirmalan, Chase Tattersall, William Ducey, Michael
Willerth, Dennis Fry, Jeffrey Cameron, David Smith,
Amit Dwivedi, Joseph Griffin, Albert Sam, Andrew
Sherwood, Larry D. Flanagan, Thomas Reifsnyder,
David B. Leeser, Andres Schanzer, Robert Molnar,
Peter Wong, Kourosh Baghelai, Howard L. Saylor, Ty
Dunn, William Omlie, James R. Rooks, Timothy C.
Hodges, Eddy Luh, Pankaj Bhatnagar, Benjamin
Westbrook, Yvon R. Baribeau, George Blessios, Gary
Tannenbaum, Jason Dew, Jason Burgess, Paul Orland,
James D. Lawson, Todd Early, Randal Bast, Clinton
Atkinson, Jeff Stanley, Virginia Wong, Damian
Lebamoff, Jonathan Velasco, Boris Paul, Walter
Rizzoni, Jon R. Henwood, Carlos Rosales, Ellen
Dillavou, Eugene Simoni, Alexander Uribe, Edward
Beverly Morrison, Michael Gallichio, Angelo Santos,
Chad Laurich, Eric Gardner, Stephen Settle, Blair
Jordan, Tuan-Hung Chu, Stephen Hohmann, John C.

App. 3
Kedora, Hector Diaz-Luna, Luis G. Echeverri, Allen
Hartsell, Jeffrey Martinez, Gerardo Ortega, Boulos
Toursarkissian, Todd Smith, Mountain Medial
Physician Specialists, Thomas Ross, Matthew J.
Borkon, W. Andrew Tierney, Thomas Hatsukami,
Herbert Oye, Thomas Winek, Allan Roza, Ignacio Rua,
Sheppard Mondy, Alok K. Gupta, Brad Grimsley. Also
represented by DAVID R. TODD, THOMAS R. VUKSINICK.
STEVEN MCMAHON ZELLER, Dykema Gossett PLLC,
Chicago, IL, for defendants-appellees Hemosphere Inc.,
CryoLife Inc.
PATRICK R. JAMES, James, House, Downing &
Lueken, PA, Little Rock, AR, for defendant-appellee
Louis Elkins.
BRIAN DAVID SCHMALZBACH, McGuireWoods LLP,
Richmond, VA, for defendants-appellees Mark Grove,
Javier Alvarez-Tostado. Also represented by KATHRYN
ANN CAMPBELL, EDWIN E. BROOKS, SARAH RASHID,
Chicago, IL.
JENNIFER KURCZ, Baker & Hostetler LLP, Chicago,
IL, for defendant-appellee Siddarth Patel. Also
represented by ALAINA J. LAKAWICZ, Philadelphia, PA.
DAVID ALAN ROODMAN, Bryan Cave Leighton
Paisner LLP, St. Louis, MO, for defendants-appellees
Luis Sanchez, Patrick Geraghty. Also represented by
BARBARA SMITH, JASON MEYER.
Before PROST, Chief Judge, MOORE and STOLL,
Circuit Judges.

App. 4
STOLL, Circuit Judge.
These appeals arise from an action for patent
infringement. Drs. Nazir Khan and Iftikhar Khan
accused Hemosphere Inc., CryoLife Inc., and Merit
Medical Systems, Inc., along with over 300 hospitals
and individual physicians, of infringing a claim of U.S.
Patent No. 8,747,344, directed to an arteriovenous
shunt. The Khans challenge the district court’s decision
dismissing the action with prejudice for want of
prosecution due to the Khans’ insufficient and untimely
service of their complaint and, alternatively, for
improper venue and misjoinder. The Khans also
challenge the district court’s decisions granting the
defendants’ motion for sanctions and denying the
Khans’ cross-motion for sanctions. Merit Medical crossappeals the district court’s decision denying its motion
to declare the case exceptional and to award attorney
fees under 35 U.S.C. § 285. Because the district court
did not abuse its discretion in dismissing the action,
granting the defendants’ sanctions motion, denying the
Khans’ sanctions motion, or denying Merit Medical’s
motion for attorney fees under § 285, we affirm.
BACKGROUND
The Khans are Illinois physicians and have
exclusive rights to the ’344 patent. In their complaint
filed on August 7, 2018, the Khans alleged that the
defendant corporations, hospitals, and physicians
directly and indirectly infringed claim 13 of the ’344
patent by manufacturing or implanting into patients
the accused HeRO® Graft shunt. The Khans sent a
waiver of service of summons form and their complaint
by mail to the over 300 defendants, the vast majority of

App. 5
whom resided and practiced outside of Illinois. With
the exception of three physicians, none of the
defendants returned a completed waiver form.
Following an initial status conference in November
2018, the district court dismissed without prejudice the
Khans’ claims against Merit Medical, CryoLife, and
three physicians for improper venue. Order at 2–3,
Khan v. Hemosphere Inc., No. 18-cv-05368 (N.D. Ill.
Jan. 23, 2019), ECF No. 76. According to the district
court, the Khans had not contended that any of these
defendants resided in the Northern District of Illinois,
and the Khans had failed to plausibly allege that any
of them infringed the asserted claim in the district and
had a “regular and established place of business” in the
district, as required under 28 U.S.C. § 1400(b). Id. at 2.
The district court “caution[ed] plaintiffs to take heed of
the potentially meritorious arguments raised by
defendants thus far in considering the proper and most
effective way to prosecute their case going forward.” Id.
at 3. The district court also held its second status
conference that same day. While the Khans insisted at
the conference that they had completed proper service
for all defendants, by that date—more than 150 days
after the filing of the complaint—they had filed proof of
waiver for only one defendant. In response to the
Khans’ argument that placing the waiver request in
the mail is equivalent to service, the district court
informed the Khans that a request to waive service is
merely a request and that waiver by the defendants is
not mandatory.
The district court subsequently denied the Khans’
motion to reconsider the dismissal order because the

App. 6
motion “impermissibly rehash[ed] previously
unsuccessful arguments.” Order at 2, Khan v.
Hemosphere Inc., No. 18-cv-05368 (N.D. Ill. Feb. 13,
2019), ECF No. 84. The district court “again caution[ed]
Plaintiffs that prosecuting a patent case of any size,
much less one against three hundred defendants, is a
complex endeavor,” and that they “should carefully
evaluate clearly established requirements set forth in
governing statutes and other applicable authority so as
not to unnecessarily occupy the time and resources of
the Court and other involved parties.” Id.
Thereafter, more than 100 of the remaining
defendants filed 11 separate motions to dismiss on
various grounds, including insufficient service,
untimely service, improper venue, misjoinder, and lack
of personal jurisdiction. A subset of the non-Illinoisresident defendants also moved for sanctions against
the Khans pursuant to Rule 11 of the Federal Rules of
Civil Procedure for the Khans’ repeated assertions that
venue was proper and that service was properly
completed. The district court granted the motions and
dismissed the claims against the defendants for want
of prosecution. Khan v. Hemosphere Inc., No. 18-cv05368, 2019 WL 2137378, at *1 (N.D. Ill. May 16,
2019).
The district court held that dismissal of all
remaining defendants was warranted due to the Khans’
“insufficient and untimely attempts at service.” Id. at
*2. The district court rejected the Khans’ argument
that they had complied with the requirements of Rule
4 of the Federal Rules of Civil Procedure by simply
requesting waivers from the defendants. Id. The

App. 7
district court also found that the Khans had not
attempted to personally serve any defendant. Id.
Instead, the Khans asserted that they completed
service by mailing the summons and complaint to the
defendants, despite contrary instruction from the
district court. The district court explained that Rule
4(e) does not permit personal service via mail and the
Khans had not identified any state laws that would
otherwise allow service by mail. Id. The district court
further found that the Khans had failed to comply with
the timeliness requirement of Rule 4(m). Id. at *3. In
addition, the district court held that dismissal was
warranted on the alternative grounds of improper
venue under § 1400(b) and improper joinder under 35
U.S.C. § 299. Id.
Next, the district court granted the non-Illinoisresident defendants’ motion for sanctions based on the
Khans’ assertions regarding venue and service, which
they had maintained despite repeated warnings and
guidance from the court. Id. at *4–5. The district court
recognized that the Khans were proceeding pro se and
thus were “entitled to some leniency before being
assessed sanctions for frivolous litigation.” Id. at *5
(quoting Thomas v. Foster, 138 F. App’x 822, 823 (7th
Cir. 2005)). But the district court explained that the
Khans “not only acted in direct contravention to clear
procedural rules, statutes, and governing law, but
continued to do so after being repeatedly warned at
hearings by the Court, in written orders, and in
correspondence with defense counsel.” Id. The district
court thus found that it was “more than objectively
reasonable to believe that the [Khans] should have
known their positions on venue and service were

App. 8
groundless.” Id. Accordingly, the district court ordered
the Khans to pay attorney fees associated with the
defendants’ filing fees, motions to dismiss, and motion
for sanctions in the amount of $95,966.90. Order at 1,
Khan v. Hemosphere Inc., No. 18-cv-05368 (N.D. Ill.
July 15, 2019), ECF No. 175.
For their part, the Khans moved for sanctions
against the physician defendants and their attorneys
for alleged violations of Rule 11(b). The district court
denied the motion on the ground that the Khans failed
to provide proper notice to the defendants of their
motion under Rule 11(c) or properly present their
motion to the court as required by the court’s local
rules. Id. at 3. The district court later denied the
Khans’ motion for reconsideration of the court’s
dismissal and sanctions orders.
Merit Medical thereafter moved the district court to
declare the case exceptional and to award attorney fees
under § 285 in the amount of $292,693. The district
court denied the motion. Minute Entry, Khan v.
Hemosphere Inc., No. 18-cv-05368 (N.D. Ill. Sept. 4,
2019), ECF No. 213. The district court found that the
motion “cite[d] largely identical conduct that was
previously before the Court on the initial motion for
sanctions,” and that “[t]he Court ha[d] already
extensively considered this conduct in determining
whether sanctions were appropriate and indeed ruled
in Defendants[’] favor on this matter.” Id. The district
court also found that, although the Khans had
“litigated this case in an unorthodox manner,” none of
their conduct following the court’s grant of sanctions
could be considered “exceptional.” Id.

App. 9
The Khans and Merit Medical appeal. We have
jurisdiction pursuant to 28 U.S.C. § 1295(a)(1).
DISCUSSION
The Khans request that this court reverse the
decisions of the district court dismissing their
complaint, granting sanctions against the Khans, and
denying the Khans’ motion for sanctions. Merit Medical
cross-appeals, seeking a reversal of the district court’s
order denying its motion for attorney fees under § 285.
For the reasons discussed below, we discern no abuse
of discretion in the district court’s rulings and,
accordingly, we affirm.
I
We first consider the Khans’ challenge to the
district court’s dismissal of their complaint for failure
to effectuate proper and timely service on the
defendants as required under Rule 4 and, alternatively,
for improper venue.
A
We apply the law of the regional circuit, here the
Seventh Circuit, in resolving whether a district court
properly dismissed a case for want of prosecution. See
Bowling v. Hasbro, Inc., 403 F.3d 1373, 1375 (Fed. Cir.
2005). The Seventh Circuit reviews a district court’s
dismissal for want of prosecution for an abuse of
discretion. Williams v. Illinois, 737 F.3d 473, 476 (7th
Cir. 2013); see also Cardenas v. City of Chicago, 646
F.3d 1001, 1005 (7th Cir. 2011) (a district court’s
dismissal based on untimely service of process is
reviewed for an abuse of discretion).

App. 10
“A district court may not exercise personal
jurisdiction over a defendant unless the defendant has
been properly served with process, and the service
requirement is not satisfied merely because the
defendant is aware that he has been named in a
lawsuit or has received a copy of the summons and the
complaint.” United States v. Ligas, 549 F.3d 497, 500
(7th Cir. 2008) (citations omitted). Rule 4 specifies
acceptable methods for service. For instance, a plaintiff may request a waiver of service from a defendant by
mailing a copy of the complaint, two copies of the
waiver form, and a prepaid means for returning the
form. Fed. R. Civ. P. 4(d). “But if the defendant does
not waive service and if no federal statute otherwise
supplies a method for serving process, then Rule 4(e)’s
list of methods is exclusive.” Ligas, 549 F.3d at 501.
Those methods consist of “following state law for
serving a summons in an action brought in courts of
general jurisdiction in the state where the district court
is located or where service is made”; “delivering a copy
of the summons and of the complaint to the individual
personally”; “leaving a copy of each at the individual’s
dwelling or usual place of abode with someone of
suitable age and discretion who resides there”; and
“delivering a copy of each to an agent authorized by
appointment or by law to receive service of process.”
Fed. R. Civ. P. 4(e). “Unless service is waived, proof of
service must be made to the court.” Fed. R. Civ. P.
4(l)(1).
Rule 4 also provides that “[i]f a defendant is not
served within 90 days after the complaint is filed, the
court—on motion or on its own after notice to the
plaintiff—must dismiss the action without prejudice

App. 11
against that defendant or order that service be made
within a specified time.” Fed. R. Civ. P. 4(m). “[I]f the
plaintiff shows good cause for the failure,” however,
“the court must extend the time for service for an
appropriate period.” Id. A district court has the
discretion to dismiss a complaint with prejudice “for
want of prosecution if the plaintiff’s delay in obtaining
service is so long that it signifies failure to prosecute.”
Williams, 737 F.3d at 476 (citations omitted). A
defendant may move to dismiss based on the court’s
lack of personal jurisdiction, the insufficiency of
process, or the insufficiency of service of process. Fed.
R. Civ. P. 12(b)(2), (4), (5).
Here, the district court properly exercised its
discretion in dismissing the Khans’ complaint due to
their insufficient and untimely attempts at service.
Although the Khans endeavored to obtain waivers from
all of the defendants, with very few exceptions, the
defendants did not return signed waiver forms. Thus,
the Khans were required to serve the non-waiving
defendants by the other methods set forth under Rule
4(e). See Ligas, 549 F.3d at 501. As the district court
correctly observed, the Khans’ mailing of the complaint
and the summons does not constitute service under
Rule 4(e).
The Khans argue that each defendant had a duty
under Rule 4 to sign the waiver form and return it
within 30 days or otherwise show good cause for not
doing so. Appellants’ Br. 13, 15. They contend that
“service is complete when the signed waiver form is
returned by the defendant and filed by the plaintiff for
entry into the District Court.” Id. at 13. In their view,

App. 12
the district court lacked jurisdiction to decide the
motions to dismiss because the defendants did not
return the waiver forms back to the Khans. Id. at 15–
16.
The Khans misinterpret the provisions of Rule 4.
While Rule 4(d) obligates defendants “to avoid
unnecessary expenses of serving the summons,” it does
not require defendants to waive formal service. Fed. R.
Civ. P. 4(d)(1). Nor did the defendants’ decisions to
forgo waiving service in this case strip the district court
of its authority to decide the motions to dismiss on the
basis of insufficient service. The Khans cite subsection
(e) of Illinois statute 735 ILCS 5/2-201, in conjunction
with Rule 4(e)(1), as permitting service by mail, but
subsection (e) of Illinois statute 735 ILCS 5/2-201 does
not appear to exist. The Khans also cite subsection (e)
of Illinois statute 735 ILCS 5/2-202, but this subsection
concerns the housing authority police force’s service of
process for eviction actions and is thus inapplicable to
this civil action. The Illinois statute that governs
service of individuals in civil actions is 735 ILCS 5/2203, which does not allow service by mail. Absent proof
under Rule 4(l) that proper service was made on any of
the nonwaiving defendants, the district court properly
held that the Khans had failed to provide proper
service.
The district court also correctly concluded that the
Khans failed to comply with Rule 4(m)’s timeliness
requirement. In the more than 250 days between the
filing of the complaint and the district court’s dismissal
decision, nearly all of the over 300 defendants had not
been properly served. The district court did not abuse

App. 13
its discretion in determining that the Khans did not
show good cause to justify such “extreme
delay”—nearly three-fold the amount of time allotted to
complete service. Khan, 2019 WL 2137378, at *3.
Accordingly, we conclude that the district court was
well within its discretion to dismiss the complaint with
prejudice for want of prosecution due to the Khans’
insufficient and untimely service.
B
Turning to the issue of venue, the governing statute
provides that “[a]ny civil action for patent infringement
may be brought in the judicial district where the
defendant resides, or where the defendant has
committed acts of infringement and has a regular and
established place of business.” 28 U.S.C. § 1400(b). A
“regular and established place of business” requires a
“place of business” in the district, i.e., “a physical,
geographical location in the district from which the
business of the defendant is carried out.” In re Cray
Inc., 871 F.3d 1355, 1362 (Fed. Cir. 2017). The place of
business must be the defendant’s, “not solely a place of
the defendant’s employee.” Id. at 1363. We review de
novo the question of proper venue under § 1400(b).
Westech Aerosol Corp. v. 3M Co., 927 F.3d 1378, 1381
(Fed. Cir. 2019).
The district court correctly concluded that venue
was improper under § 1400(b). As to Merit Medical,
CryoLife, and the three physicians dismissed earlier in
the action, the district court found that the Khans had
not contended that any of these defendants resided in
the district. The district court also found that the

App. 14
Khans had failed to plausibly allege that any of them
infringed the asserted claim in the district or had a
“regular and established place of business” in the
district. As to the remaining defendants, the district
court found that the complaint and related filings were
“devoid of any facts establishing that the infringing
acts occurred in” the district or that the defendants
“reside in the district.” Khan, 2019 WL 2137378, at *3.
The district court also found that the Khans instead
“allege[d] that the acts of infringement took place in
the states in which the Defendants reside,” and that
“nearly all of the Defendants are not residents of
Illinois and are instead scattered throughout the
country in dozens of different states.” Id.
These findings remain largely unchallenged on
appeal. Indeed, the Khans concede that their complaint
names “more than 300 defendants residing in 43 states
and two manufacturers who are on opposite sides of the
country.” Appellants’ Br. 17. The Khans also admit that
“the venue for non-Illinois defendant physicians is
improper here.” Id.; see also id. at 22 (“[T]he plaintiffs
made it clear in our pleadings that the venue is
improper for non-Illinois defendant physicians.”); id. at
11 (“The totality of the record shows that the plaintiffs
have never said that the venue is proper for the 106
non-Illinois defendant physicians.”). The Khans instead
focus their challenge on the district court’s findings
that Merit Medical and CryoLife each lack a “regular
and established place of business” in the district. For
instance, they contend that these corporations have
sales representatives in the district that promote the
accused HeRO® Graft shunt. Id. at 18. But the fact that
certain employees live or conduct business in the

App. 15
district does not establish proper venue over
defendants in the district. See Cray, 871 F.3d at 1363.
We are also unpersuaded by the Khans’ contention
that venue in the district is proper because it is the
most convenient forum to all parties under 28 U.S.C.
§ 1404(a). Appellants’ Br. 17. Section 1404(a) governs
transfers of actions to other judicial districts for
convenience; it does not set the standard for whether
venue is proper. Section 1400(b) governs that issue,
and the Khans have failed to convince us that the
district court erred in determining that venue under
that statute was improper.
We have considered the Khans’ other arguments
regarding service and venue, but do not find them
persuasive. Accordingly, we conclude that the district
court did not abuse its discretion in dismissing the
action with prejudice.
II
We next consider the Khans’ challenge to the
district court’s decision granting the non-Illinoisresident defendants’ motion for Rule 11 sanctions. We
apply the law of the regional circuit, here the Seventh
Circuit, to review an award of Rule 11 sanctions. See
Eon-Net LP v. Flagstar Bancorp, 653 F.3d 1314, 1328
(Fed. Cir. 2011) (citing Power Mosfet Techs., L.L.C. v.
Siemens AG, 378 F.3d 1396, 1406–07 (Fed. Cir. 2004)).
The Seventh Circuit reviews decisions regarding Rule
11 sanctions for an abuse of discretion. Bell v.
Vacuforce, LLC, 908 F.3d 1075, 1079 (7th Cir. 2018)
(citing Cooter & Gell v. Hartmarx Corp., 496 U.S. 384,
405 (1990)).

App. 16
The district court properly exercised its discretion
in sanctioning the Khans under Rule 11(b) for their
frivolous arguments regarding venue and service of
process. The district court found that the Khans had
repeatedly asserted throughout the litigation that
venue was proper in the Northern District of Illinois. In
support of this argument, the Khans relied on this
court’s decision in In re TC Heartland LLC, 821 F.3d
1338 (Fed. Cir. 2016), despite the fact that the
Supreme Court had reversed that decision prior to the
Khans’ lawsuit, see TC Heartland LLC v. Kraft Foods
Grp. Brands LLC, 137 S. Ct. 1514 (2017). The district
court also noted that it had cited the Supreme Court’s
TC Heartland decision both in its order granting Merit
Medical’s and CryoLife’s motions to dismiss based on
improper venue and in status hearings. Despite this
guidance from the court, the Khans “again raised their
baseless argument in their Motion to Reconsider.”
Khan, 2019 WL 2137378, at *4. The district court
further found that the Khans’ complaint “undercut[]
any good faith basis for asserting venue is proper in
th[e] district,” since it alleged that the non-Illinoisresident defendants’ infringing acts occurred “at their
addresses in their respective states.” Id. (quoting
Complaint at 41, Khan v. Hemosphere Inc., No. 18-cv05368 (N.D. Ill. Aug. 7, 2018), ECF No. 1). Finally, the
district court found that the Khans had maintained
their baseless assertion that service by mail was
sufficient under Rule 4, again despite contrary
guidance from the court. Id. at *5.
The Khans do not challenge any of these factual
findings on appeal. Instead, they contend that
sanctions are inappropriate because the defendants

App. 17
violated Rule 11(c)(2), which prohibits the filing of a
sanctions motion “if the challenged paper, claim,
defense, contention, or denial is withdrawn or
appropriately corrected within 21 days after service or
within another time the court sets.” Fed. R. Civ. P.
11(c)(2). Specifically, they argue that the defendants
did not serve them with the sanctions motion more
than 21 days prior to filing it with the district court.
But the district court found the opposite—namely, that
the defendants put the Khans “on notice of their intent
to seek sanctions as early as September 24,
2018”—more than five months before they filed their
sanctions motion in March 2019. See Khan, 2019 WL
2137378, at *5. The district court also found that the
Khans were notified on several more occasions before
the defendants moved for sanctions. Id. The Khans
offer no response to the district court’s finding that the
defendants’ “‘early and often’ approach in
corresponding with [the Khans] regarding their desire
to pursue sanctions no doubt satisfies the 21-day
requirement of Rule 11(c).” Id.; see also Matrix IV, Inc.
v. Am. Nat’l Bank & Tr. Co., 649 F.3d 539, 552–53 (7th
Cir. 2011) (concluding that “a letter informing the
opposing party of the intent to seek sanctions and the
basis for the imposition of sanctions” sent more than
two years before the motion was filed was “sufficient
for Rule 11 purposes” (citations omitted)).
The Khans also argue that a sanctions award
cannot be based on their assertions regarding service
and venue because such assertions are “ancillary
issues” that are “unrelated to the merits of the claim.”
Appellants’ Br. 24. The Khans cite Rule 41(b) of the
Federal Rules of Civil Procedure and Moeck v. Pleasant

App. 18
Valley School District, 844 F.3d 387 (3d Cir. 2016), to
support their argument. Id. at 24–25. Rule 41(b)
provides that an involuntary dismissal or other
dismissal except “for lack of jurisdiction, improper
venue, or failure to join a party under Rule 19 . . .
operates as an adjudication on the merits,” Fed. R. Civ.
P. 41(b), but this rule does not preclude sanctions for
frivolous venue and service assertions. The Khans’
reliance on Moeck is similarly misplaced. In Moeck, the
Third Circuit discerned no error in the district court’s
observations that the defendants’ numerous sanctions
motions were a “waste of judicial resources” and that
discovery, motion practice, and trial were better
vehicles than sanctions motions to determine the truth
of a plaintiff’s allegations. 844 F.3d at 389–92 & n.9.
Nothing in Moeck suggests, however, that sanctions are
precluded for frivolous venue and service assertions,
even if those assertions are considered “ancillary” to
the merits of a plaintiff’s infringement claims.
We have considered the Khans’ other arguments,
but do not find them persuasive. Accordingly, we
conclude that the district court did not abuse its
discretion in granting the defendants’ motion for
sanctions.
III
We next consider the Khans’ challenge to the
district court’s denial of their cross-motion for Rule 11
sanctions against the physician defendants and their
attorneys. In their motion, the Khans sought $250,000
in damages based on the defendants’ and their
attorneys’ alleged violations of Rule 11(b), including
their “inadequate pre-filing investigation” preceding

App. 19
their sanctions motion and “prosecuti[on] [of] the case
for [the] improper purpose of harass[ing]” the Khans
and “for causing mental anguish.” Request for
Sanctions, Khan v. Hemosphere Inc., No. 18-cv-05368
(N.D. Ill. June 13, 2019), ECF No. 155.
We conclude that the district court did not abuse its
discretion in denying the Khans’ cross-motion for
sanctions. The district court denied the motion for
failure to comply with the safe harbor provisions of
Rule 11(c) and the requirement of the district court’s
Local Rule 5.3(b) to accompany a motion with “a notice
of presentment specifying the date and time on which,
and judge before whom, the motion or objection is to be
presented.” The Khans do not address either of these
defects on appeal. Instead, they merely reiterate that
the defendant physicians and their attorneys should be
sanctioned for their assertions that the HeRO® Graft
shunt does not infringe the asserted claim of the ’344
patent and for filing a motion for sanctions against the
Khans. Under these circumstances, we conclude that
the district court was well within its discretion to deny
the Khans’ cross-motion for Rule 11 sanctions.
IV
Lastly, we turn to Merit Medical’s cross-appeal from
the district court’s decision denying its motion to
declare the case exceptional and to award attorney fees
in the amount of $292,693. “The court in exceptional
cases may award reasonable attorney fees to the
prevailing party.” 35 U.S.C. § 285. “[A]n ‘exceptional
case’ is simply one that stands out from others with
respect to the substantive strength of a party’s
litigating position (considering both the governing law

App. 20
and the facts of the case) or the unreasonable manner
in which the case was litigated.” Octane Fitness, LLC
v. Icon Health & Fitness, Inc., 572 U.S. 545, 554 (2014).
“District courts may determine whether a case is
‘exceptional’ in the case-by-case exercise of their
discretion, considering the totality of the
circumstances.” Id. We review a district court’s denial
of a motion for attorney fees under § 285 for an abuse
of discretion. Highmark Inc. v. Allcare Health Mgmt.
Sys., Inc., 572 U.S. 559, 561, 564 (2014).
We conclude that the district court did not abuse its
discretion in denying Merit Medical’s motion for
attorney fees under § 285. The district court found that
the conduct described in the motion was largely
identical to the conduct already presented in the
defendants’ earlier sanctions motion and was already
considered by the court in granting sanctions against
the Khans. The district court also determined that,
although the Khans’ litigation strategy was
“unorthodox,” their conduct following the district
court’s grant of sanctions did not rise to the level of
“exceptional.” The district court further found that the
previous sanctions amount of $95,966.90 was
appropriate and reasonable given the Khans’ conduct
in the case, but that imposing a three-fold increase in
those fees was not warranted. We are unpersuaded
that the district court “based its ruling on an erroneous
view of the law or on a clearly erroneous assessment of
the evidence.” Highmark, 572 U.S. at 563 n.2 (quoting
Cooter & Gell, 496 U.S. at 405).
Merit Medical cites Rothschild Connected Devices
Innovations LLC v. Guardian Protection Services, Inc.,

App. 21
858 F.3d 1383 (Fed. Cir. 2017), to support its argument
that the district court “improperly conflated” Rule 11
with § 285 rather than accounting for the totality of the
circumstances. Cross-Appellant’s Br. 80. In Rothschild,
the district court denied a motion for fees under § 285
based on its finding that the patent owner’s “decision to
voluntarily withdraw its complaint within [Rule 11’s]
safe harbor period [wa]s the type of reasonable conduct
[that] Rule 11 is designed to encourage” and, thus,
awarding fees under § 285 would “‘contravene[] the
aims of Rule 11[’s]’ safe-harbor provision.” 858 F.3d at
1390 (latter three alterations in original) (quoting
Rothschild Connected Devices Innovations, LLC v.
Guardian Prot. Servs., Inc., No. 15-cv-1431, 2016 WL
3883549, at *2 (E.D. Tex. July 18, 2016)). We held that
the district court’s decision was contrary to the
Supreme Court’s admonition that “[w]hether a party
avoids or engages in sanctionable conduct under Rule
11(b) ‘is not the appropriate benchmark’” for an award
of fees under § 285. Id. (quoting Octane Fitness, 572
U.S. at 555).
By contrast, here, the district court considered the
totality of the circumstances, including the Khans’
litigation approach and the substantial overlap
between the complained-of conduct in Merit Medical’s
motion and the earlier sanctions motion. Based on its
assessment of the procedural history and parties’
briefing, the district court determined that the Khans’
conduct in this case—while sanctionable—was not so
unreasonable so as to make this case one of the rare
cases worthy of a three-fold increase in fees imposed
against them. Octane Fitness gives district courts broad
discretion in such exceptional-case determinations. We

App. 22
are not persuaded that the district court abused its
discretion in determining that this case is not
exceptional.
CONCLUSION
For the foregoing reasons, we affirm the district
court’s decisions dismissing the action with prejudice,
granting the defendants’ motion for sanctions, denying
the Khans’ cross-motion for sanctions, and denying
Merit Medical’s motion for attorney fees under § 285.
Because we have affirmed the district court’s dismissal
and award of sanctions based on the issues of
insufficient service of the complaint under Rule 4 and
improper venue, we need not reach the district court’s
determination of misjoinder.
AFFIRMED
COSTS
No costs.

App. 23

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE Northern District of Illinois !
CM/ECF LIVE, Ver 6.3.1
Eastern Division
Case No.: 1:18!cv!05368
Honorable Virginia M. Kendall
[Filed: July 24, 2019]
_______________________________________
Nazir Khan, et al.
)
Plaintiff,
)
)
v.
)
)
Hemosphere Inc., et al.
)
Defendant.
)
_______________________________________)
NOTIFICATION OF DOCKET ENTRY
This docket entry was made by the Clerk on
Wednesday, July 24, 2019:
MINUTE entry before the Honorable Virginia M.
Kendall. Defendant’s Motion for Judgment on
Sanctions Order [177] is granted. Judgment to follow.
Motion hearing set for 7/29/2019 is stricken. Mailed
notice(lk, )
ATTENTION: This notice is being sent pursuant to
Rule 77(d) of the Federal Rules of Civil Procedure or

App. 24
Rule 49(c) of the Federal Rules of Criminal Procedure.
It was generated by CM/ECF, the automated docketing
system used to maintain the civil and criminal dockets
of this District. If a minute order or other document is
enclosed, please refer to it for additional information.
For scheduled events, motion practices, recent opinions
and other information, visit our web site at
www.ilnd.uscourts.gov.

App. 25

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
Civil Action No. 1:18-cv-05368
[Filed: July 24, 2019]
_______________________________________
NAZIR KHAN and IFTIKHAR KHAN,
)
)
Plaintiffs,
)
)
v.
)
)
HEMOSPHERE INC., CRYOLIFE INC., )
MERIT MEDICAL SYSTEMS, INC.
)
et al.,
)
)
Defendants.
)
_______________________________________)
Judge Virginia M. Kendall
Magistrate Judge Maria Valdez
FINAL JUDGMENT AWARDING ATTORNEY’S
FEES AS RULE 11 SANCTIONS
Judgment is hereby entered in favor of Merit
Medical Systems, Inc. (“Merit”) as subrogee of the
defendants who filed the motion for sanctions (DKT No.
113) and against Plaintiffs Iftikhar Khan and Nazir
Khan, jointly and severally, in the amount of

App. 26
$95,966.90. Pursuant to 28 U.S.C. § 1961, postjudgment interest shall accrue on this judgment at the
rate of 2.36% per annum, compounded annually.
Merit shall be entitled to enforce this judgment in
its own name.
Dated: July 24, 2019.
BY THE COURT:

/s/ Virginia M. Kendall
VIRGINIA M. KENDALL
U.S. DISTRICT JUDGE

App. 27

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 18 C 5368
Judge Virginia M. Kendall
[Filed: July 15, 2019]
_______________________________________
NAZIR KHAN and IFTIKHAR KHAN,
)
)
Plaintiffs,
)
)
v.
)
)
HEMOSPHERE INC., CRYOLIFE
)
INC., MERIT MEDICAL SYSTEMS,
)
INC. at el,
)
)
Defendants.
)
_______________________________________)
ORDER
Since the filing of the Complaint in this matter,
Plaintiffs have exhibited a complete disregard of the
Court’s procedures, Federal Rules, and controlling
precedent. This pattern of indifference has resulted in
their Complaint being dismissed and sanctions being
granted in favor of Defendants. Such actions have not
abated since the granting of Defendants’ Motions to

App. 28
Dismiss and Motion for Sanctions. Instead, Plaintiffs
have continued to pepper the Court’s docket with
unsolicited filings while attempting to advance
arguments that have long been deemed wholly
irrelevant.
The Court granted Defendants’ Motion for
Sanctions and instructed Plaintiffs to pay Defendants’
fees associated with the filing of the Motions to Dismiss
and Motion for Sanctions. Rather than challenge the
fees that Defendants seek, Plaintiffs continue their
misguided efforts in asserting the validity of their
patent. See e.g., Dkts. 151, 155, 156, 165, 167, 168. For
the reasons stated within, Defendants’ Motion for
Attorney Fees is granted in the amount of $95,966.90. 1
(Dkt. 144).
The first step in determining the fees a prevailing
party is entitled to is to calculate the lodestar amount
or “the hours reasonably expended multiplied by the
reasonable hourly rate.” Johnson v. GDF, Inc., 668 F.3d
927, 929 (7th Cir. 2012). Then, only in limited
circumstances can the lodestar amount be adjusted. Id.
“The best evidence of an attorney’s market rate is his
or her actual billing rate for similar work.” Id. at 933.
Once this lodestar amount is calculated, it is
considered “presumptively reasonable” and it then
1

The Court notes that it did not consider Defendants’
Supplemental Information (Dkt. 169) regarding Plaintiffs’
litigation activity in Illinois state court while reaching the current
decision. The Court declines to wade into state court waters and
instead reaches this decision solely based on the issues properly
before it. Therefore, Defendants’ Motion to file Supplemental
Information is denied as moot. (Dkt. 169).

App. 29
becomes the opposing party’s burden to convince the
court that a lower rate is “required.” Robinson v. City
of Harvey, 489 F.3d 864, 872 (7th Cir. 2007) (emphasis
in original). General objections will not suffice. The
opposing party must state its objections “with
particularity and clarity.” Hutchison v. Amateur Elec.
Supply, Inc., 42 F.3d 1037, 1048 (7th Cir. 1994)
(quoting Ohio-Sealy Mattress Mfg. Co. v. Sealy Inc., 776
F.2d 646, 664 (7th Cir. 1985)); see also Farmer v.
DirectSat USA, 2015 WL 13699343, at *3 (N.D. Ill.
Mar. 18, 2015).
Here, Defendants have submitted a detailed
accounting of their work pertaining to the Motions to
Dismiss and Motion for Sanctions. Such efforts
amounted to 233.7 hours worked, generating
$95,966.90 in fees. Brent Lorimer, lead counsel for the
moving Defendants, is an attorney with 37 years of
experience and billed at an hourly rate of $472.50. See
Dkt. 144. Thomas Vuksinick and Vladimir Arezina are
similarly experienced attorneys with hourly billing
rates of $414.00 and $560.00/$480.00 an hour,
respectively. Id. Facially, these rates are perfectly
reasonable billing rates for attorneys of this caliber, as
demonstrated in their respective supporting
declarations and materials citing to comparable rates
for similar attorneys. See Dkts. 145 and 146.
With Defendants demonstrating both a reasonable
hourly rate and a reasonable amount of hours billed,
the burden shifts to Plaintiffs to lodge specific
objections. See Hutchison, 42 F.3d at 1048. Despite
filing several briefs and responses to Defendants’
Motion, Plaintiffs’ managed to mount only general

App. 30
objections to Defendants’ fee petition while instead
devoting significant time to trying to litigate the merits
of their patent—well after their case has been
dismissed. Without citing to any authority, Plaintiffs
make the general statement that “in any state, the
reasonable cost for [a motion to dismiss] by any form is
at most $1000-$2000, as Drs Khan have confirmed with
their many attorney friends.” (Dkt. 151, pg. 2). The
bald assertion that the petitioned fees are too
expensive falls well short of the burden Plaintiffs have.
See e.g., Berg v. Culhane, 2011 WL 589631, at *2 (N.D.
Ill. Feb. 10, 2011). Plaintiffs assert that it is simply
unreasonable for Defendants’ counsel to have spent
over 200 hours litigating the Motions to Dismiss and
Motion for Sanctions. Even if generalized statements
were a proper challenge to Defendants’ fee petition, it
falls flat in the context of this case. Patent
infringement cases are inherently complex. Here, this
litigation was made all the more complicated by the
affirmative actions of Plaintiffs, namely, choosing to
sue more than 300 defendants from across the country
in a single venue all the while ignoring consistent
warnings from the Court and opposing counsel. As a
result, counsel briefed multiple Motions to Dismiss on
behalf of dozens of individual Defendants. Plaintiffs’
additional complaints regarding receiving “unsolicited”
emails from counsel are similarly deficient. In raising
this challenge, Plaintiffs ignore the inescapable fact
that, as pro se Plaintiffs, Defendants’ counsel had no
choice but to correspond with them directly. These
objections provide no specific justification as to why a
downward departure from the calculated lodestar
amount is required.

App. 31
The unique burden placed on Defendants was of
Plaintiffs’ own creation as masters of their Complaint
and they cannot now cry foul. The time spent by
counsel on this case is a direct reflection of how
Plaintiffs’ chose to conduct themselves throughout this
litigation. As such, the presumptively valid lodestar
amount of $95,966.90 stands without valid objection
from Plaintiffs and the Court grants the fee petition in
its entirety in favor of Defendants, including Defendant
Dr. Brooks. Robinson, 489 F.3d at 872.
Finally, the Court addresses Plaintiffs’ Request for
Sanctions against Defendants. Again, Plaintiffs seek to
use this Request as an opportunity to litigate the
merits of the underlying Patent. (Dkt. 155). The Court
need not address the merits of this Request as it is
brought improperly under both the Federal Rules of
Civil Procedure and this Court’s Local Rules. Rule 11
does not permit parties to freely seek sanctions
whenever they please. Instead, parties must comply
with the safe harbor provisions of the Rule by providing
the opposing party timely notice of the alleged
violation. Fed. R. Civ. P. 11(c). Plaintiffs’ have not
established their compliance with this provision and
therefore the Request for Sanctions is denied. The
Request similarly warrants dismissal for failure to be
properly presented before the Court. Local Rule 5.3(b).

/s/ Virginia M. Kendall
Virginia M. Kendall
United States District Judge
Date: July 15, 2019

App. 32

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 18 C 5368
Judge Virginia M. Kendall
[Filed: May 16, 2019]
_______________________________________
NAZIR KHAN and IFTIKHAR KHAN,
)
)
Plaintiffs,
)
)
v.
)
)
HEMOSPHERE INC., CRYOLIFE
)
INC., MERIT MEDICAL SYSTEMS,
)
INC. at el,
)
)
Defendants.
)
_______________________________________)
MEMORANDUM OPINION AND ORDER
Plaintiffs Nazir Khan and Iftikhar Khan filed this
action against more than 300 defendants alleging
patent infringement under 35 U.S.C. § 112. Five of
these Defendants were previously dismissed for
improper venue. (Dkt. 76). As a byproduct of how the
Plaintiffs have chosen to structure and litigate their
case, the moving Defendants have presented the Court
with a selection of paths the Court might take to
dispose of this case. Currently pending before the Court

App. 33
are eleven separate Motions to Dismiss from 116 of the
remaining Defendants. Defendants’ Motions seek
dismissal for lack of personal jurisdiction, improper
venue, misjoinder, insufficient service, and untimely
service. (Dkts. 88, 90, 93, 96, 99, 100, 102, 105, 107,
111, 131). Despite these eleven Motions brought by
more than 100 Defendants, a significant number of
named Defendants have not yet joined the Court and
the parties on this adventure due to Plaintiffs’ inability
to effect service. Additionally, a selection of the nonresident Defendants seek sanctions against Plaintiffs
for their repeated assertions that venue is proper in the
Northern District of Illinois and that service was
properly completed. (Dkt. 113). For the following
reasons, Defendants’ Motions to Dismiss are granted,
the claims against all non-moving Defendants are
dismissed for want of prosecution, and the non-resident
Defendants’ Motion for Sanctions is granted.
BACKGROUND
For purposes of evaluating a Motion to Dismiss, the
Court takes all well-pleaded facts as true. CalderonRamirez v. McCament, 877 F.3d 272, 275 (7th Cir.
2017). Plaintiffs bring this action pro se and filed their
Complaint on August 7, 2018. (Dkt. 1). Plaintiffs are
Illinois surgeons who have the exclusive rights to
Patent 8,747,344, “[a] Hybrid arteriovenous shunt that
serves as a conduit connecting an artery to the right
atrium of the heart whereby the impure arterial blood
flows continuously to the right atrium.” (Id. at 43).
Defendants, a collection of corporations, hospitals, and
individual physicians, allegedly infringed on the Patent
by implanting the HeRO Graft into patients. (Id. at 40.)

App. 34
Defendants, almost exclusively, reside and practice
outside the Northern District of Illinois and outside the
State of Illinois entirely. (Id. at 1-38). Plaintiffs allege
that the individual physicians are guilty of
infringement by way of implanting the HeRO Graft
into patients after receiving it from Hemosphere Inc.,
Cryolife Inc., and Merit Medical Systems Inc.1
At the parties’ initial status conference, the Court
informed Plaintiffs that patent law is unique and
requires a certain level of knowledge, they were
encouraged to hire counsel, and warned that as pro se
plaintiffs they will be held to the same level of
knowledge with respect to court rules and proceedings.
(Dkt. 48). The Court also informed Plaintiffs of the pro
se Help Desk in the building and gave them a paper
informing them how they could schedule an
appointment. Id. At the following status hearing, more
than 150 days after the filing of the Complaint,
Plaintiffs insisted that proper service had been
completed for all Defendants despite Plaintiffs having
filed proof of waiver regarding just a single Defendant.
(Dkt. 74, Dkt. 53). Plaintiffs maintained that they had
requested a waiver of service from all Defendants by
certified mail. Id. In an attempt to clarify apparent
confusion by Plaintiffs that simply placing the waiver
request in the mail is equivalent to service, the Court
informed Plaintiffs that a request to waive service is

1

Defendants Merit Medical and Cryolife were dismissed as a
result of the Court’s Order on January 23, 2019. (Dkt. 76).
Defendant Hemosphere was never successfully served and never
filed an appearance in this matter (Dkt. 13) and is part of the nonmoving Defendants discussed within this Opinion.

App. 35
only a request and waiver by Defendants is not
mandatory. Id. At each status hearing and in the
Court’s written Orders (Dkts. 76, 84), Plaintiffs were
instructed by the Court to think strategically about
their litigation approach and that they would greatly
benefit from hiring an attorney who understands the
Federal Rules and the intricacies of patent law. (See
e.g., Dkt. 120). Plaintiffs’ continued disregard of this
Court’s warnings, binding Supreme Court precedent,
and the Federal Rules has led them to the precarious
position they now find themselves—facing dismissal of
their Complaint and potential sanctions.
DISCUSSION
I. Motions to Dismiss
As listed above, the more than 100 moving
Defendants seeking dismissal do so on a variety of
grounds. Regardless of the path, this litigation yields
the same, inevitable ending. Accordingly, the Court
primarily addresses the issue of insufficient and
untimely service, an issue universal to all Defendants.
A. Insufficient Service
“A district court may not exercise personal
jurisdiction over a defendant unless the defendant has
been properly served with process …” United States v.
Ligas, 549 F.3d 497, 500 (7th Cir. 2008). Rule 4 allows
plaintiffs to obtain waiver of service from defendants,
but defendants are not required to waive formal
service. Fed. R. Civ. P. 4(d). To properly request waiver
of service, plaintiffs must send a copy of the complaint,
two copies of the waiver form, and a prepaid means to
allow defendants to return the form. Id. When

App. 36
service is not waived, plaintiff must effect service by
(1) delivering a copy of the summons and of the
complaint to the defendant personally, (2) leaving a
copy of the summons and complaint and the
defendant’s dwelling with someone who resides there,
(3) delivering a copy of the summons and complaint to
an agent authorized to receive service, or (4) by other
means permissible by state law in the state where the
complaint was filed or where service is made. See Fed.
R. Civ. P. 4(e); see also Ligas, 549 F.3d at 501. Rule 4
also requires that service be completed within 90 days
after the filing of the complaint. Fed. R. Civ. P. 4(m).
The Court “must dismiss” the complaint if plaintiff fails
to do so. Id. Such a dismissal may be with prejudice “if
the plaintiff’s delay in obtaining service is so long that
it signifies failure to prosecute.” Williams v. Illinois,
737 F.3d 473, 476 (7th Cir. 2013).
Dismissal of all remaining Defendants is warranted
due to Plaintiffs’ insufficient and untimely attempts at
service. Plaintiffs claim they sought waiver of service
from the more than 300 Defendants and therefore they
have complied with the conditions of Rule 4. It is
Plaintiffs’ position that Defendants are required to
waive service. (Dkt. 127, at 2). This position is
misplaced as waiver of service is merely offered as an
alternative to litigating parties and defendants are by
no means required to accept waiver. Troxell v. Fedders
of North America, Inc., 160 F.3d 381, 383 (7th Cir.
1998). With very limited exceptions, Defendants did not
waive service in this matter2. In the absence of waiver,
2

Plaintiffs filed executed waivers of service for three Defendants.
Plaintiffs first filed a waiver of service executed by Dr. Mark

App. 37
Plaintiffs have not attempted to personally serve
Defendants and instead have insisted throughout the
course of this litigation that they completed service by
mailing the summons and Complaint to Defendants.
Rule 4(e)(2) does not permit personal service via mail
and Plaintiffs have not identified any state laws which
would otherwise allow service by mail.
Plaintiffs also failed to comply with the timeliness
requirements of Rule 4(m). Still, more than 250 days
after Plaintiffs filed their Complaint, nearly all of the
Defendants have still not been properly served. The
Plaintiffs provide no justification for this extreme delay
besides their tired refrain that service was completed
by U.S. Mail. By maintaining this contention, in the
face of directly contrary instruction from the Court,
Plaintiffs have failed to comply with the necessary
procedural rules for litigating their case. Therefore, due
to insufficient and untimely service, Plaintiffs’
Complaint is dismissed for want of prosecution.
Williams, 737 F.3d at 476.
Rosenbloom (Dkt. 53) and later voluntarily dismissed him.
(Dkt. 98). Dr. Joseph Griffin waived service and seeks dismissal for
improper venue, lack of personal jurisdiction, and improper
joinder. (Dkt. 88). Finally, Plaintiffs filed the executed waiver of
service for Dr. Robert Jubelirer. (Dkt. 78). Dr. Jubelirer has not yet
filed an appearance on the docket and has not otherwise moved to
dismiss. Nonetheless, the claims against Dr. Jubelirer are
dismissed for improper service along with the other grounds
mentioned in this Opinion and the Court’s previous
Order—improper venue and misjoinder. The executed waiver of
service pertaining to Dr. Jubelirer was filed with the Court on
January 28, 2019, well after the 90 days permitted by Rule 4(m)
and without any indication as to when waiver was actually
executed.

App. 38
B. Improper Venue
Alternatively, Plaintiffs’ Complaint is dismissed for
improper venue. The Court adopts its analysis
pertaining to improper venue as laid out in its January
23, 2019 and February 13, 2019 Orders. (Dkts. 76, 84).
In short, venue is proper only where the defendant
resides or where the defendant committed the
infringement and has a regular place of business. See
28 U.S.C. § 1400(b). The Complaint, in conjunction
with Plaintiffs’ related filings, is devoid of any facts
establishing that the infringing acts occurred in this
judicial district or that Defendants reside in the
district. To the contrary, the Complaint alleges that the
acts of infringement took place in the states in which
the Defendants reside. (Dkt. 1, at 41). Further, nearly
all of the Defendants are not residents of Illinois and
are instead scattered throughout the country in dozens
of different states. See e.g., (Dkt. 89-2).
C. Misjoinder
Relatedly, were the claims not dismissed on other
grounds, they would be dropped pursuant to 35 U.S.C.
§ 299 which governs joinder of patent cases. Joinder in
patent infringement matters is proper only when the
alleged infringement arises:
out of the same transaction, occurrence, or series
of transactions or occurrences relating to the
making, using, importing into the United States,
offering for sale, or selling of the same accused
product or process; and questions of fact common

App. 39
to all defendants or counterclaim defendants will
arise in the action.
35 U.S.C. §299; see also Fed. R. Civ. P. 20(a)(2).
Further, the mere fact that multiple infringers each
allegedly infringed on the patent is not sufficient for
joining them as defendants in a single action. Id. The
joinder statute “looks for a ‘logical relationship’
between the claims linking the underlying facts.” In re
Apple Inc., 650 F.App’x 771, 775 (Fed. Cir. 2015)
(quoting In re EMC Corp., 677 F.3d 1351, 1358-59 (Fed.
Cir. 2012)). Here, the Plaintiffs have cast as wide of a
net as possible in attempt to capture all potential
infringers. This practice is plainly forbidden by § 299.
The Complaint simply alleges that each of the
individual Defendants infringed on the patent in their
home state where they reside. There are no allegations
that the Defendants’ actions were performed in concert
or connected in any way. Joinder is not suitable where
a party completely fails to satisfy the “requirement of
a common transaction or occurrence where unrelated
defendants, based on different acts, are alleged to have
infringed the same patent.” Rudd v. Lux Prod. Corp.
Emerson Climate Techs. Braeburn Sys., LLC, 2011 WL
148052, at *3 (N.D. Ill. Jan. 12, 2011). Without any
“logical relationship” between the facts associated with
the more than 300 Defendants, joinder is wholly
inappropriate. See In re Apple Inc., 650 App’x at 775.
As a result, each of the remaining Defendants are
dismissed for improper joinder under § 299.

App. 40
II. Non-Resident
Sanctions

Defendants’

Motion

for

A subset of the non-resident Defendants in this case
also move for sanctions under Rule 11(b)3. (Dkt. 113).
The moving non-resident Defendants assert that
Plaintiffs should be sanctioned for their arguments
regarding venue and service of process. Federal Rule of
Civil Procedure 11(b) entails that by presenting papers
to the court, the party certifies that the filing is formed
after a reasonable inquiry and:
(1) it is not being presented for any improper
purpose, such as to harass, cause unnecessary
delay, or needlessly increase the cost of
litigation;
(2) the claims, defenses, and other legal
contentions are warranted by existing law or by
a nonfrivolous argument for extending,
modifying, or reversing existing law or for
establishing new law;
(3) the factual contentions have evidentiary
support or, if specifically so identified, will likely
have evidentiary support after a reasonable
opportunity for further investigation or
discovery…
Fed. R. Civ. P. 11(b). A frivolous argument is one that
is baseless or made without reasonable and competent
3

The list of non-resident Defendants seeking sanctions is attached
as Exhibit A to Defendants’ Motion. (Dkt. 113-1). Defendants
Thomas Hatsukami, Todd Smith, Angelo Santos, and Thomas
Winek also join this Motion. (Dkt. 113, at 1).

App. 41
inquiry and therefore subject to the consequences of
Rule 11. See Berwick Grain Co., Inc. v. Ill. Dep’t of
Agric., 217 F.3d 502, 504 (7th Cir. 2000). Rule 11
“plainly authorizes a district court to sanction a lawyer
who without reasonable inquiry tenders a submission
that includes legal contentions not warranted…” Id. at
504. While the Court does have the discretion to issue
sanctions, such authority should be used sparingly in
recognition of the impact sanctions can have beyond
the merits of the case. Hartmarx Corp. v. Abboud, 326
F.3d 862, 867 (7th Cir. 2003). The Court reviews the
allegedly sanctionable conduct under a standard of
objective reasonableness and considers whether the
offending party should have known his position was
groundless. Cuna Mut. Ins. Soc. v. Office and Prof’l
Emp. Int’l Union, Local 39, 443 F.3d 556, 560 (7th Cir.
2006).
A. Sanctions for assertions regarding venue
Throughout this litigation, Plaintiffs have
repeatedly asserted that venue is proper in the
Northern District of Illinois. Early on, Merit Medical
and Cryolife moved to dismiss or sever based on
improper venue. (Dkts. 17, 26). In their response,
Plaintiffs relied on the Federal Circuit’s decision in TC
Heartland. (Dkt. 21). This reliance was sorely
misplaced though as the Federal Circuit was clearly
reversed by the Supreme Court in May 2017, well over
a year before Plaintiffs filed their response. TC
Heartland LLC v. Kraft Foods Group Brans LLC, 137
S. Ct. 1514, 1519 (2017). The Court specifically cited to
the Supreme Court’s decision in its Order granting
dismissal and in status hearings. (Dkt. 76). Indeed, the

App. 42
Court “caution[ed] plaintiffs to take heed of the
potentially meritorious arguments raised by
defendants thus far in considering the proper and most
effective way to prosecute their case going forward.” Id.
Along with governing precedent, the relevant
statute concerning venue in patent matters is clear.
“Any civil action for patent infringement may be
brought in the judicial district where the defendant
resides, or where the defendant has committed acts of
infringement and has a regular and established place
of business.” 28 U.S.C. § 1400(b). The Plaintiffs’ own
Complaint undercuts any good faith basis for asserting
venue is proper in this district. All of the Defendants
seeking sanctions practice and reside outside of the
state of Illinois and the Complaint claims that the
alleged infringement, with respect to each doctor,
occurred “at their addresses in their respective states.”
(Dkt. 1, at 41). Despite guidance from this Court,
Plaintiffs again raised their baseless argument in their
Motion to Reconsider. (Dkt. 77). No reasonable person
would have concluded that such an argument had
support in the law or in the facts of this case and
accordingly Plaintiffs actions are sanctionable.
B. Sanctions for assertions regarding service
Plaintiffs similarly made consistent representations
in their filings and in hearings that they had complied
with the requirements for perfecting service of process.
Plaintiffs attempted to serve all Defendants by
requesting a waiver of service as contemplated in Rule
4(d). However, Plaintiffs filed only three waivers of
service with the Court out of the more than 300
purportedly sent. (Dkt. 53, 78). Plaintiffs asserted that

App. 43
service by certified mail was sufficient as early as
October 2, 2018 (Dkt. 21) and maintained this position
through their most recent filing with the Court on
March 26, 2019. (Dkt. 130). See also (Dkt. 46, at 1; Dkt.
83, at 4). Throughout this time, the Court instructed
Plaintiffs that waiver of service is merely optional for
Defendants to comply with and in the absence of
waiver, they must accomplish service through other
means. (Dkt. 74). The Federal Rules do not permit
service by mail and Plaintiffs have failed to identify
any case law or procedural rules permitting service by
mail in the dozens of different states where Defendants
reside. Plaintiffs’ stubborn assertions to the contrary
are without any merit and no reasonable person would
have believed otherwise.
Rule 11(c) requires that a party seeking sanctions
must wait 21 days after the offending party is put on
notice of the possibly sanctionable offense. Fed. R. Civ.
P. 11(c)(2). This 21-day window is intended to serve as
a safe harbor to allow the challenged party to withdraw
or correct offending activity. Defendants put Plaintiffs
on notice of their intent to seek sanctions as early as
September 24, 2018, then again on October 3, 2018,
January 28, 2019, February 13, 2019, and February 15,
2019. See (Dkt. 114, Exhibits B, C, E, F, G, I).
Defendants’ “early and often” approach in
corresponding with Plaintiffs regarding their desire to
pursue sanctions no doubt satisfies the 21-day
requirement of Rule 11(c).
As pro se plaintiffs, the Khan’s are “entitled to some
leniency before being assessed sanctions for frivolous
litigation.” Thomas v. Foster, 138 Fed.Appx. 822, 823

App. 44
(7th Cir. 2005) (citing Pryzina v. Ley, 813 F.2d 821,
823-24 (7th Cir. 1987)). However, this leniency is not
without limits. See Bacon v. Am. Fed’n of State, Cty., &
Mun. Emps. Council, No. 13, 795 F.2d 33, 35 (7th Cir.
1986) (“[W]hen a layman persists in a hopeless cause
long after it should have been clear to him, as a
reasonable (though not law-trained) person, that his
cause was indeed hopeless, sanctions should be
imposed….”). The Court allowed Plaintiffs to respond
to the Motion for Sanctions orally (Dkt. 120) and
provided them with the opportunity to file multiple
responses. (Dkts. 118, 118, 128, 130). Plaintiffs not only
acted in direct contravention to clear procedural rules,
statutes, and governing law, but continued to do so
after being repeatedly warned at hearings by the
Court, in written orders, and in correspondence with
defense counsel. It is more than objectively reasonable
to believe that the Plaintiffs should have known their
positions on venue and service were groundless. While
patent law can no doubt be a thorny area of the law,
Plaintiffs missteps came far short of the substantive
merits of this dispute. Nor can it be said that these
Plaintiffs are naïve; being both medical doctors and the
alleged inventors of a complicated medical device.
Governing authority regarding proper service of
process and venue render Plaintiffs repetitive
assertions and arguments nothing more than frivolous.
The non-resident Defendants’ Motion for Sanctions
is granted. (Dkt. 113). Sanctions shall include Pro Hac
Vice filing fees and costs incurred by the non-resident
Defendants in association with their Motion to Dismiss
and Motion for Sanctions. The non-resident Defendants

App. 45
shall file a breakdown of the fees they intend to recover
within 21 days.
CONCLUSION
For the reasons detailed above, Defendants’ Motions
to Dismiss are granted and Plaintiffs’ Complaint is
dismissed with prejudice for want of prosecution due to
Plaintiffs’ delay in obtaining proper service and
alternatively for improper venue and misjoinder. (Dkts.
88, 90, 93, 96, 99, 100, 102, 105, 107, 111, 131). The
non-resident Defendants’ Motion for Sanctions is
granted. (Dkt. 113). Plaintiffs shall pay reasonable fees
associated with Defendants’ filing fees, Motion to
Dismiss, and Motion for Sanctions.

/s/ Virginia M. Kendall
Virginia M. Kendall
United States District Judge
Date: May 16, 2019

App. 46

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Case No. 18 C 5368
Judge Virginia M. Kendall
[Filed: May 16, 2019]
____________________________________
Nazir Khan and Iftikhar Khan,
)
)
Plaintiff(s),
)
)
v.
)
)
Hemosphere Inc., et al,
)
)
Defendant(s).
)
____________________________________)
JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):
G in favor of plaintiff(s)
and against defendant(s)
in the amount of $
,
which

G includes pre–judgment interest.
G does not include pre–judgment interest.

App. 47
Post-judgment interest accrues on that amount at
the rate provided by law from the date of this
judgment.
Plaintiff(s) shall recover costs from defendant(s).
X in favor of defendant(s) Hemosphere Inc., et al
and against plaintiff(s) Nazir Khan and Iftikhar
Khan
Defendant(s) shall recover costs from plaintiff(s).
Q other:
This action was (check one):
Q tried by a jury with Judge presiding, and the jury
has rendered a verdict.
Q tried by Judge without a jury and the above
decision was reached.
X decided by Judge Virginia M. Kendall on Motions to
Dismiss.
Date: 5/16/2019
Thomas G. Bruton, Clerk of Court
/s/ Lynn Kandziora, Deputy Clerk

App. 48

APPENDIX G
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
2019-1952, 2019-2394
[Filed: November 6, 2020]
__________________________________________
NAZIR KHAN, IFTIKHAR KHAN,
)
Plaintiffs-Appellants
)
)
v.
)
)
HEMOSPHERE INC., ET AL.,
)
Defendants-Appellees
)
)
MERIT MEDICAL SYSTEMS INC.,
)
Defendant-Cross-Appellant )
)
HOSPITALS AND DOCTORS
)
IMPLANTING UNPATENTED HERO
)
GRAFT TO DOCTORS, ET AL.,
)
Defendants
)
__________________________________________)
Appeals from the United States District Court for
the Northern District of Illinois in No. 1:18-cv-05368,
Judge Virginia M. Kendall.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC

App. 49
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellants Iftikhar Khan and Nazir Khan filed a
combined petition for panel rehearing and rehearing en
banc. A response to the petition was invited by the
court and filed by the Appellees and Cross-Appellant.
The petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November
13, 2020.
FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
November 6, 2020
Date

App. 50

APPENDIX H
UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
[Filed: September 16, 2019)
Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov
September 16, 2019
By the Court:
NAZIR KHAN, et al.,
Plaintiffs - Appellants
No. 19-2471

v.
MERIT MEDICAL SYSTEMS INC.,
Defendant - Appellee

App. 51
Originating Case Information:
District Court No: 1:18-cv-05368
Northern District of Illinois, Eastern Division
District Judge Virginia M. Kendall
Upon consideration of the MOTION TO DISMISS
CASE PURSUANT TO FEDERAL RULE OF
APPELLATE PROCEDURE 42(B), filed on
September 12, 2019, by the pro se appellants,
IT IS ORDERED that this case is DISMISSED,
pursuant to Federal Rule of Appellate Procedure 42(b).

App. 52

APPENDIX I
Rule 11. Signing Pleadings, Motions, and Other
Papers; Representations to the Court;
Sanctions
(a) SIGNATURE. Every pleading, written motion, and
other paper must be signed by at least one attorney of
record in the attorney’s name—or by a party personally
if the party is unrepresented. The paper must state the
signer’s address, e-mail address, and telephone
number. Unless a rule or statute specifically states
otherwise, a pleading need not be verified or
accompanied by an affidavit. The court must strike an
unsigned paper unless the omission is promptly
corrected after being called to the attorney’s or party’s
attention.
(b) REPRESENTATIONS TO THE COURT. By presenting to
the court a pleading, written motion, or other
paper—whether by signing, filing, submitting, or later
advocating it—an attorney or unrepresented party
certifies that to the best of the person’s knowledge,
information, and belief, formed after an inquiry
reasonable under the circumstances:
(1)
it is not being presented for any improper
purpose, such as to harass, cause unnecessary
delay, or needlessly increase the cost of litigation;
(2)
the claims, defenses, and other legal
contentions are warranted by existing law or by a

App. 53
nonfrivolous argument for extending, modifying, or
reversing existing law or for establishing new law;
(3)
the factual contentions have evidentiary
support or, if specifically so identified, will likely
have evidentiary support after a reasonable
opportunity for further investigation or discovery;
and
(4)
the denials of factual contentions are
warranted on the evidence or, if specifically so
identified, are reasonably based on belief or a lack
of information.
(c) SANCTIONS.
(1)
In General. If, after notice and a
reasonable opportunity to respond, the court
determines that Rule 11(b) has been violated, the
court may impose an appropriate sanction on any
attorney, law firm, or party that violated the rule or
is responsible for the violation. Absent exceptional
circumstances, a law firm must be held jointly
responsible for a violation committed by its partner,
associate, or employee.
(2)
Motion for Sanctions. A motion for
sanctions must be made separately from any other
motion and must describe the specific conduct that
allegedly violates Rule 11(b). The motion must be
served under Rule 5, but it must not be filed or be
presented to the court if the challenged paper,
claim, defense, contention, or denial is withdrawn
or appropriately corrected within 21 days after
service or within another time the court sets. If
warranted, the court may award to the prevailing

App. 54
party the reasonable expenses, including attorney’s
fees, incurred for the motion.
(3)
On the Court’s Initiative. On its own, the
court may order an attorney, law firm, or party to
show cause why conduct specifically described in
the order has not violated Rule 11(b).
(4)
Nature of a Sanction. A sanction imposed
under this rule must be limited to what suffices to
deter repetition of the conduct or comparable
conduct by others similarly situated. The sanction
may include nonmonetary directives; an order to
pay a penalty into court; or, if imposed on motion
and warranted for effective deterrence, an order
directing payment to the movant of part or all of the
reasonable attorney’s fees and other expenses
directly resulting from the violation.
(5)
Limitations on Monetary Sanctions. The
court must not impose a monetary sanction:
(A) against a represented party for violating
Rule 11(b)(2); or
(B) on its own, unless it issued the
show-cause order under Rule 11(c)(3) before
voluntary dismissal or settlement of the claims
made by or against the party that is, or whose
attorneys are, to be sanctioned.
(6)
Requirements for an Order. An order
imposing a sanction must describe the sanctioned
conduct and explain the basis for the sanction.

App. 55
(d) INAPPLICABILITY TO DISCOVERY. This rule does not
apply to disclosures and discovery requests, responses,
objections, and motions under Rules 26 through 37.
Notes
(As amended Apr. 28, 1983, eff. Aug. 1, 1983; Mar. 2,
1987, eff. Aug. 1, 1987; Apr. 22, 1993, eff. Dec. 1, 1993;
Apr. 30, 2007, eff. Dec. 1, 2007.)
Notes of Advisory Committee on Rules—1937
This is substantially the content of [former] Equity
Rules 24 (Signature of Counsel) and 21 (Scandal and
Impertinence) consolidated and unified. Compare
[former] Equity Rule 36 (Officers Before Whom
Pleadings Verified). Compare to similar purposes,
English Rules Under the Judicature Act (The Annual
Practice, 1937) O. 19, r. 4, and Great Australian Gold
Mining Co. v. Martin, L. R., 5 Ch.Div. 1, 10 (1877).
Subscription of pleadings is required in many codes. 2
Minn.Stat. (Mason, 1927) §9265; N.Y.R.C.P. (1937)
Rule 91; 2 N.D.Comp.Laws Ann. (1913) §7455.
This rule expressly continues any statute which
requires a pleading to be verified or accompanied by an
affidavit, such as:
U.S.C., Title 28:
§381 [former] (Preliminary injunctions and temporary
restraining orders)
§762 [now 1402] (Suit against the United States).
U.S.C., Title 28, §829 [now 1927] (Costs; attorney
liable for, when) is unaffected by this rule.

App. 56
For complaints which must be verified under these
rules, see Rules 23(b) (Secondary Action by
Shareholders) and 65 (Injunctions).
For abolition of the rule in equity that the
averments of an answer under oath must be overcome
by the testimony of two witnesses or of one witness
sustained by corroborating circumstances, see
Pa.Stat.Ann. (Purdon, 1931) see 12 P.S.Pa., §1222; for
the rule in equity itself, see Greenfield v. Blumenthal,
69 F.2d 294 (C.C.A. 3d, 1934).
Notes of Advisory Committee on Rules—1983
Amendment
Since its original promulgation, Rule 11 has
provided for the striking of pleadings and the
imposition of disciplinary sanctions to check abuses in
the signing of pleadings. Its provisions have always
applied to motions and other papers by virtue of
incorporation by reference in Rule 7(b)(2). The
amendment and the addition of Rule 7(b)(3) expressly
confirms this applicability.
Experience shows that in practice Rule 11 has not
been effective in deterring abuses. See 6 Wright &
Miller, Federal Practice and Procedure: Civil §1334
(1971). There has been considerable confusion as to
(1) the circumstances that should trigger striking a
pleading or motion or taking disciplinary action, (2) the
standard of conduct expected of attorneys who sign
pleadings and motions, and (3) the range of available
and appropriate sanctions. See Rodes, Ripple &
Mooney, Sanctions Imposable for Violations of the
Federal Rules of Civil Procedure 64–65, Federal

App. 57
Judicial Center (1981). The new language is intended
to reduce the reluctance of courts to impose sanctions,
see Moore, Federal Practice 7.05, at 1547, by
emphasizing the responsibilities of the attorney and
reenforcing those obligations by the imposition of
sanctions.
The amended rule attempts to deal with the
problem by building upon and expanding the equitable
doctrine permitting the court to award expenses,
including attorney’s fees, to a litigant whose opponent
acts in bad faith in instituting or conducting litigation.
See, e.g., Roadway Express, Inc. v. Piper, 447 U.S. 752,
(1980); Hall v. Cole, 412 U.S. 1, 5 (1973). Greater
attention by the district courts to pleading and motion
abuses and the imposition of sanctions when
appropriate, should discourage dilatory or abusive
tactics and help to streamline the litigation process by
lessening frivolous claims or defenses.
The expanded nature of the lawyer’s certification in
the fifth sentence of amended Rule 11 recognizes that
the litigation process may be abused for purposes other
than delay. See, e.g., Browning Debenture Holders’
Committee v. DASA Corp., 560 F.2d 1078 (2d Cir.
1977).
The words “good ground to support” the pleading in
the original rule were interpreted to have both factual
and legal elements. See, e.g., Heart Disease Research
Foundation v. General Motors Corp., 15 Fed.R.Serv. 2d
1517, 1519 (S.D.N.Y. 1972). They have been replaced
by a standard of conduct that is more focused.

App. 58
The new language stresses the need for some
prefiling inquiry into both the facts and the law to
satisfy the affirmative duty imposed by the rule. The
standard is one of reasonableness under the
circumstances. See Kinee v. Abraham Lincoln Fed. Sav.
& Loan Ass’n, 365 F.Supp. 975 (E.D.Pa. 1973). This
standard is more stringent than the original good-faith
formula and thus it is expected that a greater range of
circumstances will trigger its violation. See Nemeroff v.
Abelson, 620 F.2d 339 (2d Cir. 1980).
The rule is not intended to chill an attorney’s
enthusiasm or creativity in pursuing factual or legal
theories. The court is expected to avoid using the
wisdom of hindsight and should test the signer’s
conduct by inquiring what was reasonable to believe at
the time the pleading, motion, or other paper was
submitted. Thus, what constitutes a reasonable inquiry
may depend on such factors as how much time for
investigation was available to the signer; whether he
had to rely on a client for information as to the facts
underlying the pleading, motion, or other paper;
whether the pleading, motion, or other paper was based
on a plausible view of the law; or whether he depended
on forwarding counsel or another member of the bar.
The rule does not require a party or an attorney to
disclose privileged communications or work product in
order to show that the signing of the pleading, motion,
or other paper is substantially justified. The provisions
of Rule 26(c), including appropriate orders after in
camera inspection by the court, remain available to
protect a party claiming privilege or work product
protection.

App. 59
Amended Rule 11 continues to apply to anyone who
signs a pleading, motion, or other paper. Although the
standard is the same for unrepresented parties, who
are obliged themselves to sign the pleadings, the court
has sufficient discretion to take account of the special
circumstances that often arise in pro se situations. See
Haines v. Kerner 404 U.S. 519 (1972).
The provision in the original rule for striking
pleadings and motions as sham and false has been
deleted. The passage has rarely been utilized, and
decisions thereunder have tended to confuse the issue
of attorney honesty with the merits of the action. See
generally Risinger, Honesty in Pleading and its
Enforcement: Some “Striking” Problems with Fed. R.
Civ. P. 11 , 61 Minn.L.Rev. 1 (1976). Motions under this
provision generally present issues better dealt with
under Rules 8, 12, or 56. See Murchison v. Kirby, 27
F.R.D. 14 (S.D.N.Y. 1961); 5 Wright & Miller, Federal
Practice and Procedure: Civil §1334 (1969).
The former reference to the inclusion of scandalous
or indecent matter, which is itself strong indication
that an improper purpose underlies the pleading,
motion, or other paper, also has been deleted as
unnecessary. Such matter may be stricken under Rule
12(f) as well as dealt with under the more general
language of amended Rule 11.
The text of the amended rule seeks to dispel
apprehensions that efforts to obtain enforcement will
be fruitless by insuring that the rule will be applied
when properly invoked. The word “sanctions” in the
caption, for example, stresses a deterrent orientation in
dealing with improper pleadings, motions or other

App. 60
papers. This corresponds to the approach in imposing
sanctions for discovery abuses. See National Hockey
League v. Metropolitan Hockey Club, 427 U.S. 639
(1976) (per curiam). And the words “shall impose” in
the last sentence focus the court’s attention on the need
to impose sanctions for pleading and motion abuses.
The court, however, retains the necessary flexibility to
deal appropriately with violations of the rule. It has
discretion to tailor sanctions to the particular facts of
the case, with which it should be well acquainted.
The reference in the former text to wilfullness as a
prerequisite to disciplinary action has been deleted.
However, in considering the nature and severity of the
sanctions to be imposed, the court should take account
of the state of the attorney’s or party’s actual or
presumed knowledge when the pleading or other paper
was signed. Thus, for example, when a party is not
represented by counsel, the absence of legal advice is
an appropriate factor to be considered.
Courts currently appear to believe they may impose
sanctions on their own motion. See North American
Trading Corp. v. Zale Corp., 73 F.R.D. 293 (S.D.N.Y.
1979). Authority to do so has been made explicit in
order to overcome the traditional reluctance of courts
to intervene unless requested by one of the parties. The
detection and punishment of a violation of the signing
requirement, encouraged by the amended rule, is part
of the court’s responsibility for securing the system’s
effective operation.
If the duty imposed by the rule is violated, the court
should have the discretion to impose sanctions on
either the attorney, the party the signing attorney

App. 61
represents, or both, or on an unrepresented party who
signed the pleading, and the new rule so provides.
Although Rule 11 has been silent on the point, courts
have claimed the power to impose sanctions on an
attorney personally, either by imposing costs or
employing the contempt technique. See 5 Wright &
Miller, Federal Practice and Procedure: Civil §1334
(1969); 2A Moore, Federal Practice 11.02, at 2104 n.8.
This power has been used infrequently. The amended
rule should eliminate any doubt as to the propriety of
assessing sanctions against the attorney.
Even though it is the attorney whose signature
violates the rule, it may be appropriate under the
circumstances of the case to impose a sanction on the
client. See Browning Debenture Holders’ Committee v.
DASA Corp., supra. This modification brings Rule 11 in
line with practice under Rule 37, which allows
sanctions for abuses during discovery to be imposed
upon the party, the attorney, or both.
A party seeking sanctions should give notice to the
court and the offending party promptly upon
discovering a basis for doing so. The time when
sanctions are to be imposed rests in the discretion of
the trial judge. However, it is anticipated that in the
case of pleadings the sanctions issue under Rule 11
normally will be determined at the end of the litigation,
and in the case of motions at the time when the motion
is decided or shortly thereafter. The procedure
obviously must comport with due process requirements.
The particular format to be followed should depend on
the circumstances of the situation and the severity of
the sanction under consideration. In many situations

App. 62
the judge’s participation in the proceedings provides
him with full knowledge of the relevant facts and little
further inquiry will be necessary.
To assure that the efficiencies achieved through
more effective operation of the pleading regimen will
not be offset by the cost of satellite litigation over the
imposition of sanctions, the court must to the extent
possible limit the scope of sanction proceedings to the
record. Thus, discovery should be conducted only by
leave of the court, and then only in extraordinary
circumstances.
Although the encompassing reference to “other
papers” in new Rule 11 literally includes discovery
papers, the certification requirement in that context is
governed by proposed new Rule 26(g). Discovery
motions, however, fall within the ambit of Rule 11.
Notes of Advisory Committee on Rules—1987
Amendment
The amendments are technical. No substantive
change is intended.
Notes of Advisory Committee on Rules—1993
Amendment
Purpose of revision. This revision is intended to
remedy problems that have arisen in the interpretation
and application of the 1983 revision of the rule. For
empirical examination of experience under the 1983
rule, see, e.g., New York State Bar Committee on
Federal Courts, Sanctions and Attorneys’ Fees (1987);
T. Willging, The Rule 11 Sanctioning Process (1989);
American Judicature Society, Report of the Third

App. 63
Circuit Task Force on Federal Rule of Civil Procedure
11 (S. Burbank ed., 1989); E. Wiggins, T. Willging, and
D. Stienstra, Report on Rule 11 (Federal Judicial
Center 1991). For book-length analyses of the case law,
see G. Joseph, Sanctions: The Federal Law of Litigation
Abuse (1989); J. Solovy, The Federal Law of Sanctions
(1991); G. Vairo, Rule 11 Sanctions: Case Law
Perspectives and Preventive Measures (1991).
The rule retains the principle that attorneys and
pro se litigants have an obligation to the court to
refrain from conduct that frustrates the aims of Rule 1.
The revision broadens the scope of this obligation, but
places greater constraints on the imposition of
sanctions and should reduce the number of motions for
sanctions presented to the court. New subdivision (d)
removes from the ambit of this rule all discovery
requests, responses, objections, and motions subject to
the provisions of Rule 26 through 37.
Subdivision (a). Retained in this subdivision are the
provisions requiring signatures on pleadings, written
motions, and other papers. Unsigned papers are to be
received by the Clerk, but then are to be stricken if the
omission of the signature is not corrected promptly
after being called to the attention of the attorney or pro
se litigant. Correction can be made by signing the
paper on file or by submitting a duplicate that contains
the signature. A court may require by local rule that
papers contain additional identifying information
regarding the parties or attorneys, such as telephone
numbers to facilitate facsimile transmissions, though,
as for omission of a signature, the paper should not be
rejected for failure to provide such information.

App. 64
The sentence in the former rule relating to the effect
of answers under oath is no longer needed and has
been eliminated. The provision in the former rule that
signing a paper constitutes a certificate that it has
been read by the signer also has been eliminated as
unnecessary. The obligations imposed under
subdivision (b) obviously require that a pleading,
written motion, or other paper be read before it is filed
or submitted to the court.
Subdivisions (b) and (c). These subdivisions restate
the provisions requiring attorneys and pro se litigants
to conduct a reasonable inquiry into the law and facts
before signing pleadings, written motions, and other
documents, and prescribing sanctions for violation of
these obligations. The revision in part expands the
responsibilities of litigants to the court, while providing
greater constraints and flexibility in dealing with
infractions of the rule. The rule continues to require
litigants to “stop-and-think” before initially making
legal or factual contentions. It also, however,
emphasizes the duty of candor by subjecting litigants
to potential sanctions for insisting upon a position after
it is no longer tenable and by generally providing
protection against sanctions if they withdraw or correct
contentions after a potential violation is called to their
attention.
The rule applies only to assertions contained in
papers filed with or submitted to the court. It does not
cover matters arising for the first time during oral
presentations to the court, when counsel may make
statements that would not have been made if there had
been more time for study and reflection. However, a

App. 65
litigant’s obligations with respect to the contents of
these papers are not measured solely as of the time
they are filed with or submitted to the court, but
include reaffirming to the court and advocating
positions contained in those pleadings and motions
after learning that they cease to have any merit. For
example, an attorney who during a pretrial conference
insists on a claim or defense should be viewed as
“presenting to the court” that contention and would be
subject to the obligations of subdivision (b) measured
as of that time. Similarly, if after a notice of removal is
filed, a party urges in federal court the allegations of a
pleading filed in state court (whether as claims,
defenses, or in disputes regarding removal or remand),
it would be viewed as “presenting”—and hence
certifying to the district court under Rule 11—those
allegations.
The certification with respect to allegations and
other factual contentions is revised in recognition that
sometimes a litigant may have good reason to believe
that a fact is true or false but may need discovery,
formal or informal, from opposing parties or third
persons to gather and confirm the evidentiary basis for
the allegation. Tolerance of factual contentions in
initial pleadings by plaintiffs or defendants when
specifically identified as made on information and
belief does not relieve litigants from the obligation to
conduct an appropriate investigation into the facts that
is reasonable under the circumstances; it is not a
license to join parties, make claims, or present defenses
without any factual basis or justification. Moreover, if
evidentiary support is not obtained after a reasonable
opportunity for further investigation or discovery, the

App. 66
party has a duty under the rule not to persist with that
contention. Subdivision (b) does not require a formal
amendment to pleadings for which evidentiary support
is not obtained, but rather calls upon a litigant not
thereafter to advocate such claims or defenses.
The certification is that there is (or likely will be)
“evidentiary support” for the allegation, not that the
party will prevail with respect to its contention
regarding the fact. That summary judgment is
rendered against a party does not necessarily mean, for
purposes of this certification, that it had no evidentiary
support for its position. On the other hand, if a party
has evidence with respect to a contention that would
suffice to defeat a motion for summary judgment based
thereon, it would have sufficient “evidentiary support”
for purposes of Rule 11.
Denials of factual contentions involve somewhat
different considerations. Often, of course, a denial is
premised upon the existence of evidence contradicting
the alleged fact. At other times a denial is permissible
because, after an appropriate investigation, a party has
no information concerning the matter or, indeed, has a
reasonable basis for doubting the credibility of the only
evidence relevant to the matter. A party should not
deny an allegation it knows to be true; but it is not
required, simply because it lacks contradictory
evidence, to admit an allegation that it believes is not
true.
The changes in subdivisions (b)(3) and (b)(4) will
serve to equalize the burden of the rule upon plaintiffs
and defendants, who under Rule 8(b) are in effect
allowed to deny allegations by stating that from their

App. 67
initial investigation they lack sufficient information to
form a belief as to the truth of the allegation. If, after
further investigation or discovery, a denial is no longer
warranted, the defendant should not continue to insist
on that denial. While sometimes helpful, formal
amendment of the pleadings to withdraw an allegation
or denial is not required by subdivision (b).
Arguments for extensions, modifications, or
reversals of existing law or for creation of new law do
not violate subdivision (b)(2) provided they are
“nonfrivolous.” This establishes an objective standard,
intended to eliminate any “empty-head pure-heart”
justification for patently frivolous arguments. However,
the extent to which a litigant has researched the issues
and found some support for its theories even in
minority opinions, in law review articles, or through
consultation with other attorneys should certainly be
taken into account in determining whether paragraph
(2) has been violated. Although arguments for a change
of law are not required to be specifically so identified,
a contention that is so identified should be viewed with
greater tolerance under the rule.
The court has available a variety of possible
sanctions to impose for violations, such as striking the
offending paper; issuing an admonition, reprimand, or
censure; requiring participation in seminars or other
educational programs; ordering a fine payable to the
court; referring the matter to disciplinary authorities
(or, in the case of government attorneys, to the
Attorney General, Inspector General, or agency head),
etc. See Manual for Complex Litigation, Second, §42.3.
The rule does not attempt to enumerate the factors a

App. 68
court should consider in deciding whether to impose a
sanction or what sanctions would be appropriate in the
circumstances; but, for emphasis, it does specifically
note that a sanction may be nonmonetary as well as
monetary. Whether the improper conduct was willful,
or negligent; whether it was part of a pattern of
activity, or an isolated event; whether it infected the
entire pleading, or only one particular count or defense;
whether the person has engaged in similar conduct in
other litigation; whether it was intended to injure;
what effect it had on the litigation process in time or
expense; whether the responsible person is trained in
the law; what amount, given the financial resources of
the responsible person, is needed to deter that person
from repetition in the same case; what amount is
needed to deter similar activity by other litigants: all of
these may in a particular case be proper
considerations. The court has significant discretion in
determining what sanctions, if any, should be imposed
for a violation, subject to the principle that the
sanctions should not be more severe than reasonably
necessary to deter repetition of the conduct by the
offending person or comparable conduct by similarly
situated persons.
Since the purpose of Rule 11 sanctions is to deter
rather than to compensate, the rule provides that, if a
monetary sanction is imposed, it should ordinarily be
paid into court as a penalty. However, under unusual
circumstances, particularly for [subdivision] (b)(1)
violations, deterrence may be ineffective unless the
sanction not only requires the person violating the rule
to make a monetary payment, but also directs that
some or all of this payment be made to those injured by

App. 69
the violation. Accordingly, the rule authorizes the
court, if requested in a motion and if so warranted, to
award attorney’s fees to another party. Any such award
to another party, however, should not exceed the
expenses and attorneys’ fees for the services directly
and unavoidably caused by the violation of the
certification requirement. If, for example, a wholly
unsupportable count were included in a multi-count
complaint or counterclaim for the purpose of needlessly
increasing the cost of litigation to an impecunious
adversary, any award of expenses should be limited to
those directly caused by inclusion of the improper
count, and not those resulting from the filing of the
complaint or answer itself. The award should not
provide compensation for services that could have been
avoided by an earlier disclosure of evidence or an
earlier challenge to the groundless claims or defenses.
Moreover, partial reimbursement of fees may
constitute a sufficient deterrent with respect to
violations by persons having modest financial
resources. In cases brought under statutes providing
for fees to be awarded to prevailing parties, the court
should not employ cost-shifting under this rule in a
manner that would be inconsistent with the standards
that govern the statutory award of fees, such as stated
in Christiansburg Garment Co. v. EEOC, 434 U.S. 412
(1978).
The sanction should be imposed on the
persons—whether attorneys, law firms, or
parties—who have violated the rule or who may be
determined to be responsible for the violation. The
person signing, filing, submitting, or advocating a
document has a nondelegable responsibility to the

App. 70
court, and in most situations is the person to be
sanctioned for a violation. Absent exceptional
circumstances, a law firm is to be held also responsible
when, as a result of a motion under subdivision
(c)(1)(A), one of its partners, associates, or employees is
determined to have violated the rule. Since such a
motion may be filed only if the offending paper is not
withdrawn or corrected within 21 days after service of
the motion, it is appropriate that the law firm
ordinarily be viewed as jointly responsible under
established principles of agency. This provision is
designed to remove the restrictions of the former rule.
Cf. Pavelic & LeFlore v. Marvel Entertainment Group,
493 U.S. 120 (1989) (1983 version of Rule 11 does not
permit sanctions against law firm of attorney signing
groundless complaint).
The revision permits the court to consider whether
other attorneys in the firm, co-counsel, other law firms,
or the party itself should be held accountable for their
part in causing a violation. When appropriate, the
court can make an additional inquiry in order to
determine whether the sanction should be imposed on
such persons, firms, or parties either in addition to or,
in unusual circumstances, instead of the person
actually making the presentation to the court. For
example, such an inquiry may be appropriate in cases
involving governmental agencies or other institutional
parties that frequently impose substantial restrictions
on the discretion of individual attorneys employed by
it.
Sanctions that involve monetary awards (such as a
fine or an award of attorney’s fees) may not be imposed

App. 71
on a represented party for causing a violation of
subdivision (b)(2), involving frivolous contentions of
law. Monetary responsibility for such violations is more
properly placed solely on the party’s attorneys. With
this limitation, the rule should not be subject to attack
under the Rules Enabling Act. See Willy v. Coastal
Corp., ____ U.S. ____ (1992); Business Guides, Inc. v.
Chromatic Communications Enter. Inc., ____ U.S. ____
(1991). This restriction does not limit the court’s power
to impose sanctions or remedial orders that may have
collateral financial consequences upon a party, such as
dismissal of a claim, preclusion of a defense, or
preparation of amended pleadings.
Explicit provision is made for litigants to be
provided notice of the alleged violation and an
opportunity to respond before sanctions are imposed.
Whether the matter should be decided solely on the
basis of written submissions or should be scheduled for
oral argument (or, indeed, for evidentiary presentation)
will depend on the circumstances. If the court imposes
a sanction, it must, unless waived, indicate its reasons
in a written order or on the record; the court should not
ordinarily have to explain its denial of a motion for
sanctions. Whether a violation has occurred and what
sanctions, if any, to impose for a violation are matters
committed to the discretion of the trial court;
accordingly, as under current law, the standard for
appellate review of these decisions will be for abuse of
discretion. See Cooter & Gell v. Hartmarx Corp., 496
U.S. 384 (1990) (noting, however, that an abuse would
be established if the court based its ruling on an
erroneous view of the law or on a clearly erroneous
assessment of the evidence).

App. 72
The revision leaves for resolution on a case-by-case
basis, considering the particular circumstances
involved, the question as to when a motion for violation
of Rule 11 should be served and when, if filed, it should
be decided. Ordinarily the motion should be served
promptly after the inappropriate paper is filed, and, if
delayed too long, may be viewed as untimely. In other
circumstances, it should not be served until the other
party has had a reasonable opportunity for discovery.
Given the “safe harbor” provisions discussed below, a
party cannot delay serving its Rule 11 motion until
conclusion of the case (or judicial rejection of the
offending contention).
Rule 11 motions should not be made or threatened
for minor, inconsequential violations of the standards
prescribed by subdivision (b). They should not be
employed as a discovery device or to test the legal
sufficiency or efficacy of allegations in the pleadings;
other motions are available for those purposes. Nor
should Rule 11 motions be prepared to emphasize the
merits of a party’s position, to exact an unjust
settlement, to intimidate an adversary into
withdrawing contentions that are fairly debatable, to
increase the costs of litigation, to create a conflict of
interest between attorney and client, or to seek
disclosure of matters otherwise protected by the
attorney-client privilege or the work-product doctrine.
As under the prior rule, the court may defer its ruling
(or its decision as to the identity of the persons to be
sanctioned) until final resolution of the case in order to
avoid immediate conflicts of interest and to reduce the
disruption created if a disclosure of attorney-client
communications is needed to determine whether a

App. 73
violation occurred or to identify the person responsible
for the violation.
The rule provides that requests for sanctions must
be made as a separate motion, i.e., not simply included
as an additional prayer for relief contained in another
motion. The motion for sanctions is not, however, to be
filed until at least 21 days (or such other period as the
court may set) after being served. If, during this period,
the alleged violation is corrected, as by withdrawing
(whether formally or informally) some allegation or
contention, the motion should not be filed with the
court. These provisions are intended to provide a type
of “safe harbor” against motions under Rule 11 in that
a party will not be subject to sanctions on the basis of
another party’s motion unless, after receiving the
motion, it refuses to withdraw that position or to
acknowledge candidly that it does not currently have
evidence to support a specified allegation. Under the
former rule, parties were sometimes reluctant to
abandon a questionable contention lest that be viewed
as evidence of a violation of Rule 11; under the revision,
the timely withdrawal of a contention will protect a
party against a motion for sanctions.
To stress the seriousness of a motion for sanctions
and to define precisely the conduct claimed to violate
the rule, the revision provides that the “safe harbor”
period begins to run only upon service of the motion. In
most cases, however, counsel should be expected to give
informal notice to the other party, whether in person or
by a telephone call or letter, of a potential violation
before proceeding to prepare and serve a Rule 11
motion.

App. 74
As under former Rule 11, the filing of a motion for
sanctions is itself subject to the requirements of the
rule and can lead to sanctions. However, service of a
cross motion under Rule 11 should rarely be needed
since under the revision the court may award to the
person who prevails on a motion under Rule
11—whether the movant or the target of the
motion—reasonable expenses, including attorney’s fees,
incurred in presenting or opposing the motion.
The power of the court to act on its own initiative is
retained, but with the condition that this be done
through a show cause order. This procedure provides
the person with notice and an opportunity to respond.
The revision provides that a monetary sanction
imposed after a court-initiated show cause order be
limited to a penalty payable to the court and that it be
imposed only if the show cause order is issued before
any voluntary dismissal or an agreement of the parties
to settle the claims made by or against the litigant.
Parties settling a case should not be subsequently faced
with an unexpected order from the court leading to
monetary sanctions that might have affected their
willingness to settle or voluntarily dismiss a case. Since
show cause orders will ordinarily be issued only in
situations that are akin to a contempt of court, the rule
does not provide a “safe harbor” to a litigant for
withdrawing a claim, defense, etc., after a show cause
order has been issued on the court’s own initiative.
Such corrective action, however, should be taken into
account in deciding what—if any—sanction to impose
if, after consideration of the litigant’s response, the
court concludes that a violation has occurred.

App. 75
Subdivision (d). Rules 26(g) and 37 establish
certification standards and sanctions that apply to
discovery disclosures, requests, responses, objections,
and motions. It is appropriate that Rules 26 through
37, which are specially designed for the discovery
process, govern such documents and conduct rather
than the more general provisions of Rule 11.
Subdivision (d) has been added to accomplish this
result.
Rule 11 is not the exclusive source for control of
improper presentations of claims, defenses, or
contentions. It does not supplant statutes permitting
awards of attorney’s fees to prevailing parties or alter
the principles governing such awards. It does not
inhibit the court in punishing for contempt, in
exercising its inherent powers, or in imposing
sanctions, awarding expenses, or directing remedial
action authorized under other rules or under 28 U.S.C.
§1927. See Chambers v. NASCO, ____ U.S. ____ (1991).
Chambers cautions, however, against reliance upon
inherent powers if appropriate sanctions can be
imposed under provisions such as Rule 11, and the
procedures specified in Rule 11—notice, opportunity to
respond, and findings—should ordinarily be employed
when imposing a sanction under the court’s inherent
powers. Finally, it should be noted that Rule 11 does
not preclude a party from initiating an independent
action for malicious prosecution or abuse of process.
Committee Notes on Rules—2007 Amendment
The language of Rule 11 has been amended as part
of the general restyling of the Civil Rules to make them
more easily understood and to make style and

App. 76
terminology consistent throughout the rules. These
changes are intended to be stylistic only.
Providing an e-mail address is useful, but does not
of itself signify consent to filing or service by e-mail.

